OIG Investigative Reports, El Paso Independent School District Trustee Indicted
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
U.S. Attorney's Office
Western District of Texas
Johnny Sutton, U.S. Attorney
FOR IMMEDIATE RELEASE:
August 29, 2008
Shana Jones, Special Assistant
Daryl Fields, Public Information Officer
(210) 384-7440
El Paso Independent School District Trustee Indicted
United States Attorney Johnny Sutton announced today that Salvador Marcos Mena, Jr., aka Sal Mena, was charged in an eight count indictment on August 14, 2008 on charges of mail fraud, conspiracy to commit mail fraud, wire fraud, conspiracy to commit wire fraud, deprivation of right to honest services and making false statements to obtain credit. He was arrested today by the FBI in west El Paso.
According to the indictment, the defendant, during the time he was an elected Trustee of the El Paso Independent School District (EPISD), conspired with others to devise a scheme to defraud the EPISD and the citizens of El Paso living in the EPISD, of the right to his honest services performed in his capacity as an elected EPISD Trustee, in the affairs of the EPISD. It further alleges that the defendant set up a sham consulting contract with a vendor whereby he received income, but provided no consulting services. Additionally, in exchange for his vote, support and influence for vendors, he instructed vendors seeking to do business with EPISD to make contributions to his election and re-election campaigns. The Indictment also alleges Mena accepted cash bribes in exchange for his vote and official influence.
In January and February 2006, the defendant, made material false statements to a financial institution to obtain a loan, which purported to be a home improvement loan for the remodeling of the residence of a family member. The defendant knew the money was not intended for that purpose, in violation of federal law.
“ The El Paso division of the FBI has diligently worked with the U.S. Attorney's Office on this indictment. The FBI will continue to aggressively pursue all logical avenues of investigation in the overall case and we will seek similar charges against other individuals when evidence of criminal activity has been fully documented,” stated Special Agent in Charge David Cuthbertson.
This is an ongoing investigation of the Federal Bureau of Investigation and is being prosecuted for the government by Assistant United States Attorney Debra Kanof.
An indictment a formal accusation of criminal conduct, not evidence of guilt. The defendant is presumed innocent unless and until convicted through due process of law.
Top
Printable view
Share this page
Last Modified: 09/08/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov